21-108
IN THE
SUPREME COURT OF THE UNITED STATES
Clint A. Krislov, et al.,

Petitioners,

vs.
Cook County Officers’ Electoral Board, et al.,

Respondents.

PROOF OF SERVICE OF
RULE 30.4 LETTER
MIGUEL E. LARIOS
Counsel of Record for Cook County Officers’ Electoral Board,
Hon. Karen A. Yarbrough, by Sisavanh Baker,
Hon. Kimberly Foxx, by Jessica M. Scheller, and
Hon. Dorothy Brown, by Meredith Hammer, Respondents
50 W. Washington Street, Suite 2760
Chicago, Illinois 60602
Miguel.Larios@cookcountyil.gov
(312)690-3543
PROOF OF SERVICE
(Sup. Ct. R. 29.5(b))
I, Miguel E. Larios, am the attorney of record for Cook County Officers’ Electoral Board,
Hon. Karen A. Yarbrough, by Sisavanh Baker, Hon. Kimberly Foxx, by Jessica M. Scheller,
and Hon. Dorothy Brown, by Meredith Hammer, Respondents, and I am a member of the
Bar of the Supreme Court of the United States. I certify that I served the Rule 30.4 Letter
for Extension of Time on the counsel listed below:
1. Clint A. Krislov was served on August 25, 2021 by depositing in the United States mail
a copy of the document in a sealed envelope with first class postage affixed and properly
addressed to counsel of record at his office:
Clint A. Krislov
Krislov & Associates, Ltd.
20 North Wacker Drive
Suite 1300
Chicago, Illinois 60606
clint@krislovlaw.com
Counsel for Clint A. Krislov

I have also complied with the requirements Supreme Court Rule 29.3 by transmitting an
electronic copy to counsel of record for Clint A. Krislov at his e-mail address,
clint@krislovlaw.com on August 25, 2021.
Dated: August 25, 2021

__________________________
Miguel E. Larios
Cook County State’s Attorney’s Office
Conflicts Counsel Unit
50 W. Washington Street, Suite 2760
Chicago, Illinois 60602
Miguel.Larios@cookcountyil.gov
(312)690-3543
Attorney of Record for Cook County Officers’ Electoral Board,
Hon. Karen A. Yarbrough, by Sisavanh Baker,
Hon. Kimberly Foxx, by Jessica M. Scheller, and
Hon. Dorothy Brown, by Meredith Hammer

